GR-80-98-008
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Use of Equitable Sharing Funds by the
Euless, Texas Police Department
 
GR-80-98-008
January 23, 1998
 
 
EXECUTIVE SUMMARY
 
The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit on the use of equitable sharing cash by the City of
Euless, Texas, Police Department. The audit was requested by the Criminal Division, Asset
Forfeiture and Money Laundering Section, DOJ.
The Euless PD was a member of two task forces, the Fort Worth Task Force and the
Dallas/Fort Worth (DFW) Airport Task Force. From FY 1995 through June 30, 1997, the Euless
PD received a total of $2,974,694 in equitable sharing funds and spent $2,460,353.
Generally, the Euless PD properly accounted for the funds received from the U.S.
Marshals Service and the DFW Airport Task Force. The City of Euless, Texas, budget for
police services increased each year from FY 1995 through FY 1997, while non-law
enforcement budgets decreased.

In summary, we found the following conditions during our audit:



Routine salary and overtime costs plus related employee benefits of $112,495 are
      questioned, as we determined them to be supplanted by equitably shared funds.




Internal controls over equitable sharing funds need to be improved.


#####